Report No. DODIG-2013-028               December 7, 2012




      Contracting Improvements Still Needed in DoD's
           FY 2011 Purchases Made Through the
              Department of Veterans Affairs
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
FAR                           Federal Acquisition Regulation
IG                            Inspector General
OIG                           Office of Inspector General
VA                            Department of Veterans Affairs
                                 INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                         December 7, 2012

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
              NAVAL INSPECTOR GENERAL
              AUDITOR GENERAL, DEPARTMENT OF 1HE ARMY

SUBJECT: Contracting Improvements Still Needed in DoD's FY 2011 Purchases Made
         Through the Department ofVeterans Affairs
         (Report No. DODIG-2013-028)

We are providing this report for your review and comment. DoD contracting officials
generally complied with policies and procedures when issuing direct interagency
acquisition orders through the Department of Veterans Affairs. However, DoD
contracting officials did not make price reasonableness determinations for 131 open
market products, valued at $5.3 million; request price reductions for 6 orders, valued at
$2.7 million; support best procurement approach determinations for 4 orders, valued at
$9.1 million; de-obligate unused funds of$293,625; or seek a refund of$44,952 for
products not delivered. We considered comments from the Office of the Surgeon
General, Department of the Army and the Office of the Assistant Secretary of the Air
Force, Procurement Transformation Division when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Comments from the Office of the Surgeon General, Department of the Army, and the
Office of the Assistant Secretary of the Air Force, Procurement Transformation Division
were responsive. We did not receive comments from the Commander, Naval Medical
Logistics Command. In response to the final report, we request that the Commander
provide comments on Recommendations 2, 4a, and 4b by January 7, 2013. If you
disagree with the potential monetary benefits, specify the amount at issue.

If possible, send a Microsoft Word (doc) file and portable document format (.pdf) file
containing your comments to audacm@dodig.mil. Comments provided to the report
must be marked and portion-marked, as appropriate, in accordance with DoD Manual
5200.01. Portable document format (.pdf) copies of your comments must have the actual
signature of the authorizing official for your organization. We are unable to accept the
/Signed/ symbol in place of the actual signature. If you arrange to send classified
comments electronically, you must send them over the SECRET Internet Protocol Router
Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077).



                                           7J~-"~"'~oLo       .o(vJ~
                                               ~ac~iin~C Wicecarver
                                              Assistant Inspector General
                                              Acquisition and Contract Management
Report No. DODIG-2013-028 (Project No. D2011-D000CF-0273.000)                        December 7, 2012

                Results in Brief: Contracting Improvements
                Still Needed in DoD’s FY 2011 Purchases
                Made Through the Department of
                Veterans Affairs
                                                                •   request price reductions for 6 orders, valued
What We Did                                                         at $2.7 million, because the vendor did not
The National Defense Authorization Act for                          provide discounts in the past or contracting
FY 2008 requires the DoD Office of Inspector                        officials were not aware that they were
General and the Department of Veterans Affairs                      required to seek price reductions; and
(VA) Office of Inspector General to review                      •   support best procurement approach
procedures for DoD interagency purchases made                       determinations for 4 orders, valued at
through VA. We reviewed 20 direct interagency                       $9.1 million.
acquisitions, valued at $13.7 million, to determine
whether DoD and VA improved their interagency               As a result, DoD might not have always received the
purchasing practices since our last audit,                  best value when using VA for direct interagency
Report No. D-2009-043, “FY 2007 DoD Purchases               acquisitions.
Made Through the U.S. Department of Veterans
Affairs,” January 21, 2009.                                 What We Recommend
                                                            We recommend the Director, U.S. Army Medical
What We Found                                               Research Acquisition Activity; the Director, North
DoD contracting officials generally complied with           Atlantic Regional Contracting Office; the
policies and procedures when issuing direct                 Commander, Naval Medical Logistics Command;
interagency acquisitions through VA. Specifically,          the Director of Contracting, 502 Contracting
DoD contracting officers defined requirements and           Squadron; and the Commander, 802 Contracting
used funds appropriately when awarding contract             Squadron, provide refresher training to their
orders on all 20 direct interagency acquisitions,           contracting officers that focuses on the problems in
competed 5 orders, justified 13 sole-source orders,         this report. We recommend the North Atlantic
and documented receipt of products for 18 orders.           Regional Contract Office contracting officer
However, DoD contracting officers did not:                  de-obligate funds in the amount of $293,625. We
                                                            recommend the U.S. Army Medical Research
    •   de-obligate unused funds of $293,625 for            Acquisition Activity contracting officer seek a
        one order and obtain a refund of $44,952 on         refund of $44,952 for products not delivered.
        another order for products not delivered
        because the contracting officer did not track       Management Comments and
        funds and items delivered properly. See
        Appendix E for a summary of potential               Our Response
        monetary benefits;                                  The Chief of Staff, Office of the Surgeon General,
    •   determine whether the prices paid for               Department of the Army, and the Deputy Chief,
        131 open market products (products not on           Installation and Sourcing Division, Office of the
        vendors VA Federal supply schedules),               Assistant Secretary of the Air Force, Procurement
        valued at $5.3 million, on 5 orders were fair       Transformation Division, agreed with the
        and reasonable because they relied on               recommendations, and the comments were
        information in vendor quotes and pricelists         responsive. The Commander, Naval Medical
        without verifying that the products were on         Logistics Command, did not comment on a draft of
        the vendors VA Federal supply schedules;            this report. Please see the recommendations table on
                                                            the back of this page.

                                                        i
Report No. DODIG-2013-028 (Project No. D2011-D000CF-0273.000)          December 7, 2012

Recommendations Table

         Management                     Recommendations           No Additional
                                       Requiring Comment       Comments Required
Director, U.S. Army Medical                                2, 3, 4a, 4b
Research Acquisition Activity
Director, North Atlantic Regional                          1, 2, 4a, 4b
Contracting Office
Commander, Naval Medical            2, 4a, 4b
Logistics Command
Director of Contracting, 502                               2, 4a, 4b
Contracting Squadron
Commander, 802 Contracting                                 2, 4a, 4b
Squadron

Please provide comments by January 7, 2013.




                                                ii
Table of Contents
Introduction                                                               1

      Objectives                                                           1
      Legislation and Congressional Report Requirement                     2
      Background                                                           2
      Direct Interagency Acquisitions Reviewed                             3
      Review of Internal Controls                                          3

Finding. DoD Generally Complied With Policies and Procedures for Direct
Interagency Acquisitions, but Improvement Is Needed                        5

      Requirements Defined                                                 6
      Funds Used Appropriately                                             6
      Orders Adequately Competed                                           6
      Sole-Source Orders Justified                                         7
      Product Receipt Documented                                           7
      Price Reasonableness Determination Problems                          8
      Price Reductions Not Requested                                      10
      Best Procurement Approach Not Supported                             10
      Conclusion                                                          11
      Recommendations, Management Comments, and Our Response              12

Appendices

      A. Scope and Methodology                                            15
             Universe Information                                         15
             Sample Information                                           15
             Use of Computer-Processed Data                               16
      B. Prior Coverage                                                   17
      C. Direct Interagency Acquisitions Reviewed                         19
      D. Direct Interagency Acquisition Problems                          21
      E. Summary of Potential Monetary Benefits                           23

Management Comments

      Department of the Army                                              24
      Department of the Air Force                                         27
Introduction
Objectives
The initial audit objective was to determine whether Department of Defense (DoD) and
the Department of Veterans Affairs (VA) improved their interagency purchasing
practices since our last report, Report No. D-2009-043, “FY 2007 DoD Purchases Made
Through the U.S. Department of Veterans Affairs,” January 21, 2009. In addition, we
examined the policies, procedures, and internal controls to determine whether DoD had a
legitimate need to use VA, whether DoD clearly defined its requirements, whether DoD
interagency contracting practices adhered to Federal and DoD regulations, and whether
VA and DoD properly used and tracked funds. We also determined whether VA officials
complied with Federal and Defense procurement requirements.

In May 2008, the VA Office of the Deputy Assistant Secretary for Acquisition and
Logistics issued a memorandum terminating its support for assisted interagency
acquisitions made on behalf of the Office of the Air Force Surgeon General effective
May 2009. VA determined it could not continue the service as it had become
increasingly difficult to hire and retain qualified contracting personnel. VA also stated
that it must use existing resources to meet its own requirements.

Initially, our announced objective was to determine whether DoD and VA improved their
interagency purchasing practices since our last report. However, after issuing the
announcement letter and meeting with VA Office of Inspector General (OIG) personnel,
we identified two VA assisted acquisitions, totaling $40,625, during FY 2011. VA OIG
then reviewed the two acquisitions and found that VA completed only one acquisition on
DoD’s behalf in FY 2011. Specifically, VA’s National Acquisition Center awarded a
delivery order for an X-Ray machine for DoD at a cost of $38,000. The VA OIG
determined the VA National Acquisition Center had effective policies, procedures, and
management controls in place to ensure the contracting officer complied with Defense
procurement requirements when placing the delivery order for the X-Ray machine.

As a result, this audit covers only direct interagency acquisitions. Since VA’s most
significant involvement in direct interagency acquisitions consisted of managing the
indefinite-delivery contract (which DoD requesting activities placed orders under), we
did not examine whether VA tracked funds or whether VA officials complied with
Federal and Defense procurement requirements.

See Appendix A for a discussion of the scope and methodology. See Appendix B for
prior coverage related to the objectives.




                                             1
Legislation and Congressional Report Requirement
We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 801, “Internal controls for procurements
on behalf of the Department of Defense by certain non-Defense agencies,”
January 28, 2008. Section 801 requires the following Inspector General (IG) reviews:
               (a) Inspectors General Reviews and Determinations.—
               (1) In General.—For each covered non-defense agency, the Inspector
               General of the Department of Defense and the Inspector General of
               such covered non-defense agency shall, not later than the date specified
               in paragraph (2), jointly—
               (A) review—
               (i) the procurement policies, procedures, and internal controls of such
               covered non-defense agency that are applicable to the procurement of
               property and services on behalf of the Department by such covered
               non-defense agency; and
               (ii) the administration of such policies, procedures, and internal
               controls; and
               (B) determine in writing whether such covered non-defense agency is
               or is not compliant with defense procurement requirements.
               (2) Deadline for Reviews and Determinations.—The reviews and
               determinations required by paragraph (1) shall take place as follows:
               (A) In the case of the General Services Administration, by not later
               than March 15, 2010.
               (B) In the case of each of the Department of the Treasury, the
               Department of the Interior, and the National Aeronautics and Space
               Administration, by not later than March 15, 2011.
               (C) In the case of each of the Department of Veterans Affairs and the
               National Institutes of Health, by not later than March 15, 2012.

In March 2012, we provided the preliminary results of our audit to the U.S. House
Committee on Armed Services and the U.S. Senate Armed Services Committee.

Background
Interagency acquisitions are commonly conducted through indefinite-delivery contracts,
such as task and delivery-order contracts. The indefinite-delivery contracts used most
frequently to support interagency acquisitions are Federal supply schedules,
Government-wide acquisition contracts, and multiagency contracts. There are two types
of interagency acquisitions: direct and assisted. In a direct interagency acquisition, the
requesting agency places an order against the servicing agency’s indefinite-delivery
contract. The servicing agency manages the indefinite-delivery contract but does not
participate in the placement of an order. In an assisted acquisition, the servicing agency
and requesting agency enter into an interagency agreement where the servicing agency
performs acquisition activities on the requesting agency’s behalf. The servicing agency
is responsible for awarding a contract, task order, or delivery order and for appointing a
contracting officer’s representative.



                                                  2
Direct Interagency Acquisitions Reviewed
We reviewed 20 orders, valued at $13.7 million. 1 Nineteen orders, valued at
$12.9 million, were VA Federal supply schedule orders, and one order, valued at
$744,372, was a non-VA Federal supply schedule order that a DoD contracting officer
awarded from an existing VA indefinite-delivery, indefinite-quantity contract.
Appendix C identifies the 20 orders we reviewed. Appendix D identifies the DoD
contracting offices where the specific problems occurred. We reviewed the eight areas
shown in Table 1.

                                     Table 1. Areas Reviewed
                   Areas Reviewed                    Number of Direct Interagency
                                                       Acquisitions Reviewed
             Defined Requirements                                20
             Use of Funds                                        20
             Competition                                          51
             Sole-Source                                         141
             Receipt of Goods                                    20
             Price Reasonableness                                20
             Price Reductions                                    162
             Best Procurement Approach                            53
            1
              We did not include the non-VA Federal supply schedule order in the competition or sole
             source figures because competition occurred when VA contracting officials competitively
             awarded indefinite-delivery, indefinite-quantity contract VA101049A3P0154 to one contractor.
             Therefore, competition on individual orders was not applicable.
             2
              DoD contracting officers were required to seek price reductions for 16 orders. For 11 of the
             orders placed before May 16, 2011, the requirement was based on maximum order level dollar
             thresholds in accordance with Federal Acquisition Regulation 8.405-1, “Ordering procedures
             for supplies, and services not requiring a statement of work.” For five of the orders, the
             requirement was based on the simplified acquisition threshold (currently $150,000), in
             accordance with Federal Acquisition Regulation 8.405-4, “Price Reductions.”
            3
              DoD contracting officers were required to make best procurement approach determinations for
            five VA Federal supply schedule orders in accordance with FAR 17.502-1, “General,”
            procedures because the orders were individually valued in excess of $500,000.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses related to direct interagency acquisitions of products that DoD contracting
officers made from VA Federal supply schedules. Specifically, controls were not in
place to verify that DoD contracting officers made price reasonableness determinations,
requested price reductions, or supported best procurement approach determinations in


1
    Number rounded.

                                                     3
accordance with Federal Acquisition Regulation (FAR) procedures. We will provide a
copy of the report to the senior official(s) responsible for internal controls in the offices
of the Under Secretary of Defense for Acquisition, Technology and Logistics; the Under
Secretary of Defense (Comptroller)/Chief Financial Officer, DoD; the Director, U.S.
Army Medical Research Acquisition Activity; the Director, North Atlantic Regional
Contracting Office; the Commander, Naval Medical Logistics Command; the Director,
502 Contracting Squadron; and the Commander, 802 Contracting Squadron.




                                              4
Finding. DoD Generally Complied With
Policies and Procedures for Direct
Interagency Acquisitions, but Improvement
Is Needed
DoD contracting officials generally complied with policies and procedures for 20 direct
interagency acquisitions, valued at $13.7 million, that they awarded as orders under VA
contracts. Specifically, in accordance with the FAR, DoD contracting officers defined
requirements and used funds appropriately when awarding and competing orders,
justifying sole-source orders, and documenting receipt of products. However, DoD
contracting officers did not:

   •   de-obligate unused funds of $293,625 from one order. This occurred because the
       contracting officer did not track funds properly.

   •   determine whether the prices paid for 131 products, valued at $5.3 million,
       purchased through five VA Federal supply schedule orders, valued at
       $6.7 million, were fair and reasonable. This occurred because DoD contracting
       officers relied on information in vendor quotes and pricelists without verifying
       that the products were on the vendors VA Federal supply schedules;

   •   seek a refund of $44,952 for 10 products, valued at $13,728, that were not
       received under one VA Federal supply schedule order and 16 other products
       received under the same VA Federal supply schedule order that were different and
       cost $31,224 less than the products ordered. The contracting officer was unaware
       that this situation occurred and is in the process of conducting a review of this
       issue;

   •   request price reductions for 6 VA Federal supply schedule orders, valued at
       $2.7 million. DoD contracting officials provided different reasons why they did
       not request price reductions when required. Specifically, two contracting officials
       did not request price reductions because the vendor stated previously that it did
       not provide discounts from its schedule prices; two contracting officials were not
       aware that they were required to seek a price reduction; one contracting official
       did not request a price reduction because the order was a sole source acquisition;
       and one did not request a price reduction because the vendor quote gave discounts
       as compared to its published pricing.

   •   support best procurement approach determinations for 4 VA Federal supply
       schedule orders, valued at $9.1 million. A DoD contracting officer for three of
       the VA Federal supply schedule orders could not explain why she did not follow
       FAR procedures for making best procurement approach determinations. The
       other DoD contracting officer was unaware that the FAR procedures for best

                                            5
       procurement approach determinations were different for direct and assisted
       interagency acquisitions.

As a result, DoD might not have always received the best value when using the VA for
direct interagency acquisitions.

Requirements Defined
DoD contracting officials defined requirements for the 20 orders, valued at $13.7 million,
in accordance with FAR 17.503, “Ordering procedures.” The procedures require that
orders placed with another Government agency should include a description of the
supplies or services required, delivery requirements, and a fund citation. Each of the
20 orders included this information. Appendix C identifies the products and services
purchased under the 20 orders.

Funds Used Appropriately
DoD used funds appropriately when awarding the 20 orders in accordance with
applicable laws and DoD regulations. According to section 1502(a), title 31,
United States Code (31 U.S.C. § 1502[a]), appropriations are available for the bona fide
needs of an appropriation’s period of availability. The bona fide needs rule states:

               [t]he balance of an appropriation or fund limited for obligation to a
               definite period is available only for payment of expenses properly
               incurred during the period of availability or to complete contracts
               properly made within that period of availability and obligated
               consistent with section 1501 of this title. However, the appropriation or
               fund is not available for expenditure for a period beyond the period
               otherwise authorized by law.

Specifically, DoD contracting officers used the correct appropriations that were available
for use when they awarded the orders, and the orders included delivery dates and periods
of performance that were within the fund’s periods of availability.

Orders Adequately Competed
DoD contracting officers competed five VA Federal supply schedule orders, valued at
$2.7 million, in accordance with FAR 8.405-1, “Ordering procedures for supplies, and
services not requiring a statement of work.” Three of the five orders involved multiple
offers. FAR 8.405-1(d) considers Federal supply schedule orders to be competed if the
contracting officer advertises the request for quote on the General Services
Administration e-Buy. The award summaries for these five orders included information
that showed contracting officers advertised the request for quotes on General Services
Administration e-Buy. Table 2 provides details related to the five competitive VA
Federal supply schedule orders.




                                                  6
               Table 2. Competitive VA Federal Supply Schedule Orders
        VA Federal Supply              DoD Contracting                 Amount              Number of
       Schedule Order No.                   Office                                          Offers
     1) W81XWH-11-F-0015                 USAMRAA                             $176,949          3
     2) W81XWH-11-F-0091                 USAMRAA                              273,679          1
     3) W81XWH-11-F-0139                 USAMRAA                              224,761          1
     4) W91YTZ-11-F-0028                   NARCO                              471,897          2
     5) FA3047-11-F-0001                802 Contracting                     1,575,573         21
                                           Squadron
       Total                                                               $2,722,859
    USAMRAA U.S. Army Medical Research Acquisition Activity
    NARCO        North Atlantic Regional Contracting Office
    Note: Amounts are rounded.

Sole-Source Orders Justified
DoD contracting officers justified the use of sole-source acquisition procedures for
13 orders, valued at $9.9 million. However, for one sole-source order, valued at
$265,705, a 502 Contracting Squadron contracting officer did not provide enough
information in the sole-source justification to support the use of sole-source procedures.
Specifically, the sole source justification stated, “market research has been performed by
other federal contracting offices.” However, the justification did not identify the other
Federal contracting offices or the specific market research they performed. According to
FAR 8.405-6, “Limiting Sources,” each sole-source justification shall include a
description of the market research conducted among schedule holders and the results or a
statement of the reason market research was not conducted. We are not making a
recommendation since only one sole-source award was not fully justified.

Product Receipt Documented
DoD personnel documented receipt of products or services for 18 orders. 2 However, for
one order, valued at $163,409, a North Atlantic Regional Contracting Office contracting
officer could not provide documentation showing that a DoD official received the
products purchased. This occurred because the contracting officer did not perform her
duties as the responsible official for receiving products by maintaining documentation
showing that DoD received the products. According to FAR 46.502, “Responsibility for
Acceptance,” acceptance of supplies or services is the responsibility of the contracting
officer. In addition, according to FAR 46.401, “General,” Government inspection shall
be documented on an inspection or receiving report form or commercial shipping
document/packing list under agency procedures.




2
 We did not review all the products purchased to determine whether they were received because of
contract actions that were still ongoing.


                                                   7
For another order, valued at $176,949, receipt documentation showed that the requiring
activity did not receive the products it ordered. This issue is discussed in more detail in
the price reasonableness section of this report immediately after Table 3. We are not
making a recommendation on these issues since only two instances occurred.

For order W91YTZ-11-F-0026, valued at $744,372, receipt documentation showed that
only $450,747 was expended and completed during the order’s period of performance;
however, the North Atlantic Regional Contracting Office contracting officer did not
modify the order to de-obligate the unused funds. This occurred because the contracting
officer did not track funds properly. While this situation was not a receipt of products
problem, the contracting officer should de-obligate the remaining $293,625. See
Appendix E for a summary of potential monetary benefits.

Price Reasonableness Determination Problems
DoD contracting officers did not determine whether the prices paid for 131 products,
valued at $5.3 million, purchased through 5 VA Federal supply schedule orders, valued at
$6.7 million, were fair and reasonable. FAR 8.404, “Use of Federal Supply Schedules,”
                                           states that price reasonableness
     DoD contracting officers did not
  determine whether the prices paid for    determinations are not required for Federal
   131 products, valued at $5.3 million,   supply schedule products. However, the
     purchased through 5 VA Federal        131 products were open market products
     supply schedule orders, valued at     (products not on vendors VA Federal supply
             $6.7 million, were            schedule). FAR 8.402, “General,” requires
            fair and reasonable.           contracting officers to label the products as
                                           open market on Federal supply schedule
orders and to determine whether the open market prices are fair and reasonable. The
price reasonableness determination problems occurred because the contracting officers
relied on information in vendor quotes and pricelists without verifying that the products
were on the vendors VA Federal supply schedules.

In two instances, vendors worded quotes that made it look like the products were on their
VA Federal supply schedules. For example, one vendor’s quote stated: “PRICING IS
AT OR BELOW PRICES UNDER FEDERAL SUPPLY CONTRACT V797-4512A.”
Another misleading vendor quote included a list of products and a column titled “FSS
Unit Price.” Nevertheless, DoD contracting officers should have reviewed the vendor’s
VA Federal supply schedules to determine whether products that they ordered were on
the vendor’s VA Federal supply schedules or were open market products. We brought
this issue to the attention of the VA OIG. A division director stated that he would
forward our information to the VA OIG component that specializes in contract reviews.
In addition, three DoD contracting officers agreed that DoD officials should have
identified the open market products before placing the orders. Table 3 identifies the VA
Federal supply schedule orders that had open market product price reasonableness
determination problems.




                                              8
  Table 3. Open Market Product Price Reasonableness Determination Problems
  DoD VA Federal            DoD         Number       Dollar Value of     Total Dollar
  Supply Schedule        Contracting       of         Open Market       Value of Order
     Order No.             Office       Products          Items
 W81XWH-11-F-0122        USAMRAA           4                  $94,100              $332,069
 W91YTZ-11-F-0049          NARCO            2                 76,540             190,470
 W91YTZ-11-F-0064          NARCO            8                 94,871             163,409
 W91YTZ-11-F-0046          NARCO            30               107,035             243,405
 N62645-11-F-0012          NMLC             87             4,932,963           5,756,144
  Total                                    131            $5,305,509          $6,685,497
USAMRAA U.S. Army Medical Research Acquisition Activity
NARCO        North Atlantic Regional Contracting Office
NMLC        Naval Medical Logistics Command
Note: Amounts are rounded.

Another price reasonableness-related problem occurred under VA Federal supply
schedule order W81XWH-11-F-0015, valued at $176,949, when a U.S. Army Medical
Research Acquisition Activity contracting officer did not seek a refund for 10 products,
valued at $13,728, that were not received. Also, 16 other products received under
order W81XWH-11-F-0015 were different from the product ordered and cost $31,224
less than the products ordered (see Table 4). When we brought this issue to the attention
of the contracting officer, he was unaware that this situation occurred or why the
receiving activity did not inform him of this matter. The contracting officer initiated a
review of this matter, and he will provide us with the results of his review when
completed. The U.S. Army Medical Research Acquisition Activity contracting officer
should obtain a refund of $44,952 from the vendor for this order.

             Table 4. Amount Overpaid for Products Purchased Under
                          Order W81XWH-11-F-0015
         Product Ordered          Unit Price       Quantity          Total
       BQ 900 Slit Lamp             $9,686.50        16             $154,984.00
       R900 Tonometer               $1,372.80        16              $ 21,964.80
        Total                                                       $176,948.80

        Product Received          Unit Price       Quantity          Total
       BM 900                       $7,735.00        16             $123,760.00
       R900 Tonometer               $1,372.80         6                8,236.80
        Total                                                       $131,996.80
       Amount Overpaid                                               $44,952.00




                                            9
Price Reductions Not Requested
DoD contracting officials did not seek price reductions for 6 VA Federal supply schedule
orders, valued at $2.7 million. For five of the orders, awarded before May 16, 2011,
FAR 8.405-1 requires DoD contracting officials to seek price reductions because the
values of the orders exceeded the maximum order thresholds established in the vendors
VA Federal supply schedules. For the other order, awarded after May 16, 2011,
FAR 8.405-4, “Price Reductions,” requires the DoD contracting official to seek a price
reduction because the value of the order exceeded the simplified acquisition threshold.
DoD contracting officials provided various reasons why they did not request price
reductions when required, their reasons are identified in Table 5.

                    Table 5. Request for Price Reduction Problems
   DoD VA Federal             DoD              Reasons Why Contracting Officials Did Not
   Supply Schedule         Contracting                 Request Price Reductions
     Order No.               Office
 W81XWH-11-F-0122           USAMRAA           The contract specialist did not request a price
                                              reduction because the order was a sole source
                                              acquisition.
 W91YTZ-11-F-0064             NARCO           The contracting officer stated that she did not
                                               request discounts because the vendor’s quote gave
                                              discounts as compared to its published pricing.
 N62645-11-F-0022             NMLC            The contracting officer was not aware that
                                              requests for price reductions were required.
 N62645-11-F-0026             NMLC            The contract specialist did not request a price
                                              reduction because the vendor previously told the
                                              command multiple times that it did not give
                                              discounts from its schedule prices.
 N62645-11-F-0046             NMLC            The contract specialist did not request a price
                                              reduction because the vendor previously told the
                                              command multiple times that it did not give
                                              discounts from its schedule prices.
 FA3016-11-F-0019         502 Contracting     The contract specialist was not aware that requests
                             Squadron         for price reductions were required.
USAMRAA     U.S. Army Medical Research Acquisition Activity
NARCO       North Atlantic Regional Contracting Office
NMLC        Naval Medical Logistics Command

As of May 16, 2011, FAR 8.405-4 requires DoD contracting officials to seek price
reductions for orders above the simplified acquisition threshold instead of the maximum
order threshold. DoD contracting officials should request, in writing, price reductions on
orders above the simplified acquisition threshold.

Best Procurement Approach Not Supported
DoD contracting officials did not support that their use of VA Federal supply schedules
was the best procurement approach for four VA Federal supply schedule orders, valued at
$9.1 million. FAR 17.502-1,”General,” requires contracting officers to include an

                                              10
analysis of the suitability of the other agency’s contract as part of their best procurement
approach determinations. DoD contracting officers’ best procurement approach
determinations did not indicate whether they reviewed the VA Federal supply schedule
contracts they used to determine that the contracts were suitable for their purchases, as
required by FAR 17.502-1. DoD contracting officers need to support that their use of VA
contracts is the best procurement approach. Table 6 identifies the four VA Federal
supply schedule orders that had best procurement approach determination problems and
the reasons DoD contracting officials provided for why they did not follow FAR
procedures.

                   Table 6. Best Procurement Approach Problems
   DoD VA Federal          DoD               Reasons Why Best Procurement Approach
   Supply Schedule      Contracting            Determinations Were Not Supported
     Order No.            Office
                                           The contracting officer could not explain why she
  N62645-11-F-0012         NMLC            did not follow FAR 17.502-1(a)(2) procedures
                                           when making best procurement determinations.
                                           The contracting officer could not explain why she
  N62645-11-F-0026         NMLC            did not follow FAR 17.502-1(a)(2) procedures
                                           when making best procurement determinations.
                                           The contracting officer could not explain why she
  N62645-11-F-0046         NMLC            did not follow FAR 17.502-1(a)(2) procedures
                                           when making best procurement determinations.
                                           The contracting officer was unaware of the
                                           distinction between assisted and direct
                                           interagency acquisitions. On December 15, 2011,
                            802
                                           Chief of Contracts for the Air Force
  FA3047-11-F-0001       Contracting
                                           802 Contracting Squadron issued an e-mail to
                          Squadron
                                           contracting officials reminding them of their
                                           responsibilities for following FAR 17.502-1(a)(2)
                                           procedures.
NMLC     Naval Medical Logistics Command

Conclusion
DoD contracting officials generally complied with policies and procedures when issuing
direct interagency acquisition orders through VA. Specifically, in accordance with the
FAR, DoD contracting officers defined requirements and used funds appropriately when
awarding contract orders on all 20 orders, competing 5 orders, justifying 13 sole-source
orders, and documenting receipt of products for 18 orders. However, DoD contracting
officials need to improve making price reasonableness determinations, requesting price
reductions, and supporting best procurement approach determinations. As a result, DoD
contracting officials might not have always received the best value when using VA for
direct interagency purchases.




                                                11
Recommendations, Management Comments, and
Our Response
1. We recommend that the North Atlantic Regional Contracting Office contracting
officer de-obligate $293,625 from order W91YTZ-11-F-0026.

Department of the Army Comments
The Chief of Staff, Office of the Surgeon General, Department of the Army, responding
on behalf of the North Atlantic Regional Contracting Office contracting officer, agreed
with the recommendation. The Chief of Staff stated that the contracting officer identified
additional funds for de-obligation on order W91YTZ-11-F-0026 and the North Atlantic
Regional Contracting Office de-obligated a total of $378,459.81 on July 23, 2012. The
Chief of Staff stated that the $378,459.81 amount included the $293,625 noted in this
report and recommendation.

Our Response
Comments from the Chief of Staff were responsive, and no further comments are
required.

2. We recommend that the Director, U.S. Army Medical Research Acquisition
Activity; the Director, North Atlantic Regional Contracting Office; the
Commander, Naval Medical Logistics Command; the Director of Contracting, 502
Contracting Squadron; and the Commander, 802 Contracting Squadron, provide
refresher training to contracting officers that focuses on problems we identified in
the report and to require contracting officers to review vendors’ Department of
Veterans Affairs Federal supply schedules to identify open market products and
make price reasonableness determinations for the open market products.

Department of the Army Comments
The Chief of Staff, Office of the Surgeon General, Department of the Army, with
attached comments from the Director, U.S. Army Medical Research Acquisition Activity,
agreed with the recommendation. The Chief of Staff stated that Health Care Acquisition
Activity and U.S. Army Medical Research Acquisition Activity contracting officers
would receive refresher training that focuses on the problems in the report, including the
requirement to review vendors VA Federal supply schedules for open market products
and make price reasonableness determinations for the open market products. The Army
will complete the training by June 30, 2013.

Our Response
Comments from the Chief of Staff were responsive, and no further comments required.

Department of the Air Force Comments
The Deputy Chief, Installations and Sourcing Division, Assistant Secretary of the
Air Force, Procurement Transformation Division, responding on behalf of the Director of
Contracting, 502 Contracting Squadron, and the Commander, 802 Contracting Squadron,

                                           12
agreed with the recommendation. The Deputy Chief stated that 502 Contracting
Squadron provided on-the-spot correction to the problems identified in the report, which
included instructing the contracting officers to ensure that fair and reasonable pricing was
provided on all acquisitions. The Deputy Chief stated that the recommended refresher
training was incorporated into an 802 Contracting Squadron training event held on
November 15, 2012.

Our Response
Comments from the Deputy Chief were responsive, and no further comments required.

Management Comments Required
The Commander, Naval Medical Logistics Command did not comment on a draft of this
report. We request Navy comments on the final report.

3. We recommend that the U.S. Army Medical Research Acquisition Activity
contracting officer obtain a refund of $44,952 from the vendor for
order W81XWH-11-F-0015.

Department of the Army Comments
The Chief of Staff, Office of the Surgeon General, Department of the Army, partially
agreed, stating that the contracting officer is conducting a review of the products related
to order W81XWH-11-F-0015. The contracting officer anticipates completing the review
by December 1, 2012, and, if appropriate, requesting a refund from the vendor.

Our Response
Comments from the Chief of Staff were responsive. As we stated in the report, the
contracting officer initiated a review and agreed to provide us with results upon
completion. Therefore, no further comments are required.

4. We recommend that the Director, U.S. Army Medical Research Acquisition
Activity; the Director, North Atlantic Regional Contracting Office; the
Commander, Naval Medical Logistics Command; the Director of Contracting, 502
Contracting Squadron; and the Commander, 802 Contracting Squadron, provide
refresher training to contracting officers that focuses on problems we identified in
the report and to require contracting officers to:

        a. Request in writing price reductions on orders exceeding the simplified
acquisition threshold.

       b. Support that their use of Department of Veterans Affairs contracts is the
best procurement approach.

Department of the Army Comments
The Chief of Staff, Office of the Surgeon General, Department of the Army, with
attached comments from the Director, U.S. Army Medical Research Acquisition Activity,

                                            13
agreed with the recommendation. The Chief of Staff stated that the Health Care
Acquisition Activity and the U.S. Army Medical Research Acquisition Activity would
provide refresher training to contracting officers. The training will focus on problems
identified in the report and will require contracting officers to request, in writing, price
reductions on orders exceeding the simplified acquisition threshold and support that use
of VA contracts is the best procurement approach. The Army will complete the training
by June 30, 2013.

Our Response
Comments from the Chief of Staff were responsive, and no further comments are
required.

Department of the Air Force Comments
The Deputy Chief, Installations and Sourcing Division, Assistant Secretary of the
Air Force, Procurement Transformation Division, agreed with the recommendation. The
Deputy Chief stated that the 502 Contracting Squadron training reinforced requesting
additional discounts when Federal supply schedules are used regardless of the issuing
agency, and that proper acquisition planning referred to in the recommendation is part of
the existing contract training at the 502 Contracting Squadron. The Deputy Chief stated
that the recommended refresher training was incorporated into an 802 Contracting
Squadron training event held on November 15, 2012.

Our Response
Comments from the Deputy Chief were responsive, and no further comments required.

Management Comments Required
The Commander, Naval Medical Logistics Command, did not comment on a draft of this
report. We request Navy comments on the final report.




                                             14
Appendix A. Scope and Methodology
We conducted this performance audit from August 2011 through September 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We performed this audit as required by
Public Law 110-181, “The National Defense Authorization Act for Fiscal Year 2008,”
section 801, “Internal controls for procurements on behalf of the Department of Defense
by certain non-Defense agencies,” January 28, 2008.

We collected, reviewed, and analyzed documents on 20 nonstatistically sampled direct
initial interagency acquisitions, valued at $13.7 million, ordered in FY 2011 from 5 DoD
contracting offices. See Sample Information section for a listing of the five contracting
offices and the criteria we used to review documentation for the 20 orders. Specifically,
we reviewed the orders, purchase requests, business clearance memorandums, vendor
quotes, sole source acquisition justifications, VA federal supply schedules, inspection and
receiving data, and invoices. We also interviewed contracting and program personnel at
the five DoD contracting offices. We reviewed documentation from August 1995 through
August 2012.

This audit covers only direct interagency acquisitions because VA made only two
assisted acquisitions, totaling $40,625, during FY 2011. While DoD OIG audit team
involvement with VA OIG auditors was limited, we coordinated with them and they were
aware of the scope of our audit.

Universe Information
The audit universe consisted of direct interagency acquisitions that DoD ordering offices
awarded as orders through VA contracts between October 1, 2010, and June 30, 2011.
We used the Federal Procurement Data System-Next Generation database to identify the
contracts for the audit universe.

From October 1, 2010, through June 30, 2011, DoD ordering offices made 1,979 direct
interagency acquisitions, valued at $212.6 million. Of those, 1,675, totaling
$54.4 million, were valued under the simplified acquisition threshold of $150,000.
The remaining 304 interagency acquisitions, totaling $158.2 million, were above the
simplified acquisition threshold. Of those, 101 interagency acquisitions, valued at
$43.8 million, were initial orders placed during FY 2011.

Sample Information
From the 101 direct interagency acquisitions, we selected a nonstatistical sample of
20 interagency acquisitions, valued at $13.7 million. Nineteen, valued at $12.9 million,
were VA Federal supply schedule orders and one, valued at $744,372, was an order that a
DoD contracting officer awarded from an existing non-VA Federal supply schedule
indefinite-delivery contract. Seventeen orders, valued at $10.8 million, were for

                                            15
purchases of products, and three orders, valued at $2.9 million, were for purchases of
services. The following five DoD contracting offices awarded the 20 orders.

       •   U.S. Army Medical Research Acquisition Activity, Fort Detrick, Maryland
       •   North Atlantic Regional Contracting Office, Fort Belvoir, Virginia
       •   Naval Medical Logistics Command, Fort Detrick, Maryland
       •   502 Contracting Squadron, Fort Sam Houston, Texas
       •   802 Contracting Squadron, Lackland Air Force Base, Texas

We used the following criteria to perform the review.

   •   FAR 17.503, “Ordering Procedures,” requires that orders be placed with another
       Government agency include a description of the supplies or services required,
       delivery requirements, and a fund citation.

   •   Section 1502, title 31, United States Code and DoD Financial Management
       Regulation, volume 2A, chapter 1, “General Information,” requires DoD
       contracting officers to use funds appropriately when awarding contract orders.

   •   FAR 8.405, “Ordering Procedures for Federal Supply Schedules,” establishes
       policy and procedures for competing, justifying sole-source orders issued under
       VA Federal supply schedule contracts, and requires contracting officers to request
       a price reduction.

   •   FAR 46.502, “Responsibility for Acceptance,” specifies who is responsible for
       receipt of supplies or services. We did not review all the products purchased to
       determine whether they were received due to contract actions that were still
       ongoing.

   •   FAR 8.404, “Use of Federal Supply Schedules,” and FAR 8.402, “General,”
       specifies whether price reasonableness determinations have to be made and the
       requirement to identify open market items.

   •   FAR 17.5, “Interagency Acquisitions,” requires contracting officers to include an
       analysis of the suitability of the other agency’s contract as part of the best
       procurement approach determination.

Use of Computer-Processed Data
We used the Federal Procurement Data System-Next Generation database to identify
orders that DoD activities awarded between October 1, 2010, and June 30, 2011, from
existing VA contracts. We also used information downloaded from the Wide Area
Workflow database to obtain documentation showing when DoD personnel received
products and services. To access the accuracy of computer-processed data, we verified
the Federal Procurement Data System and Wide Area Workflow data against official
records at visited contracting activities. We determined that data obtained through the
Federal Procurement Data System and Wide Area Workflow was sufficiently reliable to
accomplish our audit objectives.
                                            16
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DoD OIG, the
Department of the Army, and the Department of Energy Office of the Inspector General
(DOE IG) issued 16 reports discussing interagency acquisitions. Unrestricted GAO
reports can be accessed at http://www.gao.gov. Unrestricted DoD OIG reports can be
accessed at http://www.dodig.mil/audit/reports. Unrestricted Army reports can be
accessed from .mil and gao.gov domains over the Internet at https://www.aaa.army.mil/.
Unrestricted DOE IG reports can be accessed at http://www.ig.energy.gov/reports.htm.

GAO
GAO Report No. GAO-11-394T, “GAO’s 2011 High Risk Series: An Update,”
February 17, 2011

GAO Report No. GAO-11-41, “NIST’s Interagency Agreements and Workload Require
Management Attention,” October 20, 2010

GAO Report No. GAO-10-862T, “Contracting Strategies: Better Data and Management
Needed to Leverage Value of Interagency and Enterprisewide Contracts,” June 30, 2010

GAO Report No. GAO-10-367, “Contracting Strategies: Data and Oversight Problems
Hamper Opportunities to Leverage Value of Interagency and Enterprisewide Contracts,”
April 29, 2010

GAO Report No. GAO-08-1063, “DoD Financial Management: Improvements Are
Needed In Antideficiency Act Controls and Investigations,” September 26, 2008

DoD IG
DoD IG Report No. DODIG-2012-072, DOI OIG Report No. ER-IN-NBC-0001-2011,
“A Joint Audit by the Inspectors General of U.S. Department of the Interior and U.S.
Department of Defense: DoD FY 2010 Purchases Made Through the Department of the
Interior,” April 13, 2012

DoD IG Report No. D-2011-021, “More DoD Oversight Needed for Purchases Made
Through the Department of Energy,” December 3, 2010

DoD IG Report No. D-2011-018, “FY 2008 and FY 2009 DoD Purchases Made Through
the General Services Administration,” November 30, 2010

DoD IG Report No. D-2009-064, “FY 2007 DoD Purchases Made Through the National
Institutes of Health,” March 24, 2009

DoD IG Report No. D-2009-043, “FY 2007 DoD Purchases Made Through the U.S.
Department of Veterans Affairs,” January 21, 2009


                                          17
DoD IG Report No. D-2008-122, “Follow-up on DoD Purchases Made Through the
Department of the Interior,” August 18, 2008

DoD IG Report No. D-2008-082, “Summary Report on Potential Antideficiency Act
Violations Resulting From DoD Purchases Made Through Non-DoD Agencies (FY 2004
Through FY 2007),” April 25, 2008

DoD IG Report No. D-2008-066, “FY 2006 and FY 2007 DoD Purchases Made Through
the Department of the Interior,” March 19, 2008

DoD IG Report No. D-2008-050, “Report on FY 2006 DoD Purchases Made Through the
Department of the Treasury,” February 11, 2008

Army
U.S. Army Audit Agency Report No. A-2009-0016-FFH, “Acquisition Made Using
Military Interdepartmental Purchase Requests, U.S. Army Medical Command,”
November 17, 2008

DOE IG
DOE IG Report No. DOE/IG-0829, “Work for Others Performed by the Department of
Energy for the Department of Defense,” October 26, 2009




                                       18
       Appendix C. Direct Interagency Acquisitions Reviewed
      VA Contract No.            Order          Purchase Description               DoD Requesting Activity                       Contract Type Used
      DoD Order No.              Value
                                   U.S. Army Medical Research Acquisition Activity, Fort Detrick, Maryland
                                                                                        US Army Medical Materiel Agency
     1) W81XWH-11-F-0015          $ 176,949     Slit Lamp System                        693 Neiman Street                        Federal Supply Schedule
                                                                                        Fort Detrick, MD 21702
                                                                                        US Army Medical Materiel Agency
     2) W81XWH-11-F-0091           273,679      Diode Laser                             693 Neiman Street                        Federal Supply Schedule
                                                                                        Fort Detrick, MD 21702
                                                                                        US Army Medical Materiel Agency
                                                Parts to rebuild Zoll Defibrillators,
     3) W81XWH-11-F-0122           332,069                                              693 Neiman Street                        Federal Supply Schedule
                                                including batteries
                                                                                        Fort Detrick, MD 21702
                                                                                        Walter Reed Army Institute of Research
                                                Hydrogen Peroxide/Plasma Sterilizer,
     4) W81XWH-11-F-0139           224,761                                              Robert Grant Avenue, Bldg 503            Federal Supply Schedule
                                                Sterilizer and Cassette
                                                                                        Silver Spring, MD 20910
                                        North Atlantic Regional Contracting Office, Fort Belvoir, Virginia
                                                                                        Ireland Army Community Hospital
     5) VA101049A3P0154                         Food Service for Ireland Army
                                  $ 744,372                                             289 Ireland Avenue, Bldg 851             VA Contract
19




        W91YTZ-11-F-0026                        Community Hospital
                                                                                        Fort Knox, KY 40121
                                                                                        Womack Army Medical Center
     6) W91YTZ-11-F-0028           471,897      Hospital Beds                           Bldg 2817 Reilly Road                    Federal Supply Schedule
                                                                                        Fort Bragg, NC 28310
                                                                                        Ireland Army Community Hospital
     7) W91YTZ-11-F-0046           243,405      Wireless Patient Monitoring System      289 Ireland Avenue, Bldg 851             Federal Supply Schedule
                                                                                        Fort Knox, KY 40121
                                                                                        PR Centralized ORG and INSTL PBO
                                                                                        W2L6 Womack Army Medical Center
     8) W91YTZ-11-F-0049           190,470      Video Processor (Surgical Scopes)       USA Medical Dept Activity                Federal Supply Schedule
                                                                                        Bldg 42817 Reilly Road
                                                                                        Fort Bragg, NC 28310
                                                                                        W2H8 USA MEDDAC West Point
     9) W91YTZ-11-F-0064           163,409      Defibrillators/Monitors                 813 West Moore Loop, Bldg 813            Federal Supply Schedule
                                                                                        West Point, NY 10996
                                               Naval Medical Logistics Command, Fort Detrick, Maryland
                                                                                        National Naval Medical Center
     10) N62645-11-F-0012        $ 5,756,144    Operating Room Integration System                                                Federal Supply Schedule
                                                                                        Bethesda, MD 20889
     Note: Amounts are rounded
                          Appendix C. Direct Interagency Acquisitions Reviewed (cont’d)
                         VA Contract No.            Order                 Purchase Description                     DoD Requesting Activity                 Contract Type Used
                         DoD Order No.              Value
                        11) N62645-11-F-0022                                                                  United States Naval Ship Mercy
                                                     $ 264,567     Infusion Pump                                                                           Federal Supply Schedule
                                                                                                              San Diego, CA 92136
                                                                                                              Naval Hospital Camp Pendleton
                                                                   Telepharmacy Remote Dispensing and         Camp Pendleton, CA 92055 and
                        12) N62645-11-F-0026           564,289                                                                                             Federal Supply Schedule
                                                                   Verification System                        Family Medicine Oceanside
                                                                                                              Oceanside, CA 92054
                        13) N62645-11-F-0046          1,156,821    Telepharmacy Support                       Multiple Locations (17 Medical Facilities)   Federal Supply Schedule
                                                                                                              Naval Hospital Camp Lejeune
 DRAFT REPORT




                                                                                                              Camp Lejeune, NC 28547 and
                        14) N62645-11-F-0054           228,156     Automated Flexible Endoscope Disinfector                                                Federal Supply Schedule
                                                                                                              Naval Hospital Jacksonville
                                                                                                              Jacksonville, FL 32214
                                                                   High Definition Flexible Video Scope
                        15) N62645-11-F-0075           458,651                                                Multiple Locations (Five US Navy Ships)      Federal Supply Schedule
                                                                   System
                                                                                                              U.S. Naval Hospital Okinawa




                                                                                                                                                                                     DRAFT REPORT
                                                                   Disinfectors, liquid germicide, flexible
                        16) N62645-11-F-0082           213,649                                                U.S. Naval Hospital Naples (Norfolk, VA)     Federal Supply Schedule
                                                                   endoscopes
                                                                                                              U.S. Naval Hospital Cherry Point (NC)
            20




                                                                   High Definition Flexible Videoscope        U.S.S. Theodore Roosevelt (Suffolk, VA),
                        17) N62645-11-F-0097           179,589                                                                                             Federal Supply Schedule
                                                                   Systems for the multiple hulls             U.S.S. San Diego (Pascagoula, MS)
FOR OFFICIAL USE ONLY
  17




                                                                     502 Contracting Squadron, Fort Sam Houston, Texas
                                                                                                              Medical Education and Training Campus
                        18) FA3016-11-F-0019         $ 265,705     Chemical Reagents                          Medical Logistics Bldg B1, Wilson Way        Federal Supply Schedule
                                                                                                              Fort Sam Houston, TX 78234
                                                                  802 Contracting Squadron, Lackland Air Force Base, Texas
                                                                                                              59 Medical Logistics Readiness Squadron/
                                                                   Anesthesiologist and pain management       59 Medical Diagnostic Operations Group
                        19) FA3047-11-F-0001        $ 1,575,573                                                                                            Federal Supply Schedule
                                                                   services                                   2200 Bergquist Drive, Suite 1
                                                                                                              Lackland AFB, TX 78236
                                                                                                              Wilford Hall Medical Center
                                                                   Rental/Support agreement for Pyxis         59th MLRS/SGSKM
                        20) FA3047-11-F-0008           185,940                                                                                             Federal Supply Schedule
                                                                   Connect system                             2200 Berquist Drive, Suite 1
                                                                                                              Lackland AFB, TX 78236
                        Note: Amounts are rounded
     Appendix D. Direct Interagency Acquisition Problems
                              Sole Source          Government            Price           Request for Price   Best Procurement
      DoD Order No.           Justification          Receipt         Reasonableness         Reduction            Approach
                                                                     Determination                            Determination
                         United States Army Medical Research Acquisition Activity, Fort Detrick, Maryland
     W81XWH-11-F-0015         Not Applicable            X                   X                Adequate          Not Applicable
     W81XWH-11-F-0091         Not Applicable         Adequate            Adequate          Not Applicable      Not Applicable
     W81XWH-11-F-0122           Adequate             Adequate               X                    X             Not Applicable
     W81XWH-11-F-0139         Not Applicable         Adequate            Adequate            Adequate          Not Applicable
                                 North Atlantic Regional Contracting Office, Fort Belvoir, Virginia
     VA101049A3P0154
                              Not Applicable         Adequate         Not Applicable       Not Applicable        Adequate
     W91YTZ-11-F-0026
     W91YTZ-11-F-0028         Not Applicable         Adequate            Adequate            Adequate          Not Applicable
     W91YTZ-11-F-0046           Adequate             Adequate               X              Not Applicable      Not Applicable
     W91YTZ-11-F-0049           Adequate             Adequate               X                Adequate          Not Applicable
     W91YTZ-11-F-0064           Adequate                X                   X                    X             Not Applicable
21




                                     Naval Medical Logistics Command, Fort Detrick, Maryland
      N62645-11-F-0012          Adequate             Adequate              X                 Adequate                X
      N62645-11-F-0022          Adequate             Adequate            Adequate                X             Not Applicable
      N62645-11-F-0026          Adequate             Adequate            Adequate                X                   X
      N62645-11-F-0046          Adequate             Adequate            Adequate                X                   X
      N62645-11-F-0054          Adequate             Adequate            Adequate            Adequate          Not Applicable
      N62645-11-F-0075          Adequate             Adequate            Adequate            Adequate          Not Applicable
      N62645-11-F-0082          Adequate             Adequate            Adequate            Adequate          Not Applicable
      N62645-11-F-0097          Adequate             Adequate            Adequate            Adequate          Not Applicable
                                         502 Contracting Squadron, Fort Sam Houston, Texas
      FA3016-11-F-0019              X                Adequate            Adequate                X             Not Applicable
     Appendix D. Direct Interagency Acquisition Problems (cont’d)
                                  Sole Source               Government                   Price                Request for Price        Best Procurement
      DoD Order No.               Justification               Receipt                Reasonableness              Reduction                 Approach
                                                                                     Determination                                      Determination
                                          802 Contracting Squadron, Lackland Air Force Base, Texas
      FA3047-11-F-0001            Not Applicable               Adequate                  Adequate                  Adequate                      X
      FA3047-11-F-0008               Adequate                  Adequate                  Adequate               Not Applicable            Not Applicable
           Totals                     1 of 14                   2 of 20                   6 of 20                   6 of 16                    4 of 5

     Not Applicable - indicates orders that were not reviewed because they were either:
         • competitive (sole source justification column)
         • associated with one VA indefinite-delivery contract (price reasonableness determination column)
         • valued below dollar thresholds requiring request for price reductions and best procurement approach determinations (final two columns).
     Adequate - indicates orders that have been reviewed with no problems found.
     Symbol [X] - indicates orders that have been reviewed with problems found.
22
Appendix E. Summary of Potential
Monetary Benefits
Recommendations                   Type of Benefit                 Amount of             Accounts
                                                                    Benefit
1                           Economy and Efficiency.                $293,625          097201120110130
                            Funds put to better use from
                            the FY 2011 Operation and
                            Maintenance, Defense Health
                            Program, appropriation.
3                           Economy and Efficiency.                 $44,952                  2102035
                            Funds put to better use from
                            the FY 2010 Other
                            Procurement, Army
                            appropriation.

Note: Potential monetary benefits are funds put to better use or questioned costs.




                                                     23
Department of the Army Comments





                                   24
Department of the Army Comments             Final Report
                                             Reference




                                         Attachment is not
                                         included because it
                                         does not provide
                                         additional applicable
                                         information.




                Click to add JPEG file




                                  25
Department of the Army Comments





                                   26
Department of the Air Force Comments





                                 27
Department of the Air Force Comments





                                 28
